                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



August 7, 2014

Brenda E. Brickhouse, BR 4A-C

REQUEST FOR FINAL ACTION – AUDIT 2013-14959 – TVA ENVIRONMENTAL RISK
MANAGEMENT



Attached is the subject final report for your review and final action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final actions are complete. In accordance
with the Inspector General Act of 1978, as amended, the Office of the Inspector General is
required to report to Congress semiannually regarding audits that remain unresolved after
6 months from the date of report issuance.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact Sylvia J.
Whitehouse, Senior Auditor, at (865) 633-7374 or Lisa H. Hammer, Director, Operational
Audits, at (865) 633-7342. We appreciate the courtesy and cooperation received from
your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

SJW:BSC
Attachment
cc (Attachment):
     Debra J. Bodine, BR 3A-C                                Richard W. Moore, ET 4C-K
     Robert M. Deacy, Sr., LP 5D-C                           R. Windle Morgan, WT 4D-K
     William D. Johnson, WT 7B-K                             Charles G. Pardee, WT 7B-K
     David G. Jolley, WT 2D-K                                Ralph E. Rodgers, WT 6A-K
     R. Heath Jones, WT 9B-K                                 Gregory R. Signer, WT 6A-K
     Dwain K. Lanier, MR 3K-C                                John M. Thomas III, MR 6D-C
     Justin C. Maierhofer, WT 7B-K                           TVA Board of Directors
     James E. McCamy, EB 8D-C                                OIG File No. 2013-14959
     Aaron P. Melda, LP 3K-C

      WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
                               TVA RESTRICTED INFORMATION


Office of the Inspector General                                                   Audit Report
                                                                                         To the Vice President,
                                                                                         Environment




TVA ENVIRONMENTAL
RISK MANAGEMENT




Audit Team                                                                                                      Audit 2013-14959
Sylvia J. Whitehouse                                                                                              August 7, 2014
Melissa L. Conforti
Leslie A. Franks
Jessica L. Monroe
Scott M. Norris
             WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
             distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                     is not to be further distributed without prior approval of the Inspector General or his designee.


                             TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Audit Report



ABBREVIATIONS
BMP                     Best Management Practices
BU                      Business Unit
CCR                     Coal Combustion Residuals
CEC                     Categorical Exclusion Checklist
EA                      Environmental Assessment
EDMS                    Electronic Document Management System
EIS                     Environmental Impact Statement
ELLIS                   Enterprise Lessons Learned Information System
EMS                     Environmental Management System
EPA                     Environmental Protection Agency
ERAL                    Environmental Restricted Awards List
ERM                     Enterprise Risk Management
FY                      Fiscal Year
GOES                    Governance, Oversight, Execution, and Support
IRP                     Integrated Resource Plan
NEPA                    National Environmental Policy Act
NPG                     Nuclear Power Group
NRM                     TVA NEPA Reference Manual
NRP                     Natural Resources Plan
OIG                     Office of the Inspector General
PCB                     Polychlorinated Biphenyls
REE                     Reportable Environmental Event
SBU                     Strategic Business Unit
SME                     Subject Matter Expert
SPP                     Standard Programs and Processes
TVA                     Tennessee Valley Authority




Audit 2013-14959

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                      Audit Report



TABLE OF CONTENTS
EXECUTIVE SUMMARY ....................................................................................... i

BACKGROUND ....................................................................................................... 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................... 4

FINDINGS AND RECOMMENDATIONS ........................................................8
    ENTERPRISE ENVIRONMENTAL RISKS ARE INCOMPLETE ..................... 8

    TVA NEPA PROCESS WEAKNESSES INCREASE RISKS ......................... 17

    ENVIRONMENTAL MANAGEMENT SYSTEM IS GENERALLY
    EFFECTIVE BUT COULD IMPROVE ........................................................... 22

CONCLUSION ....................................................................................................... 34

MANAGEMENT’S RESPONSE AND OUR EVALUATION.................. 35


APPENDIX
MEMORANDUM DATED JULY 18, 2014, FROM BRENDA E. BRICKHOUSE
TO ROBERT E. MARTIN




Audit 2013-14959

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                               Audit Report



TABLE OF FIGURES
FIGURE 1: TVA EMS FRAMEWORK AND PROGRAM ELEMENTS ................. 3

FIGURE 2: TVA SITES VISITED ............................................................. 7

FIGURE 3: FY2013 HIGHEST RANKED ENTERPRISE
          ENVIRONMENTAL RISKS ............................................................... 9

FIGURE 4: ENVIRONMENTAL RISK AND INFORMATION
          SOURCES...................................................................................... 13

FIGURE 5: GAPS IN TVA NEPA PROCESS GUIDANCE ................................ 19

FIGURE 6: ENTRAC SYSTEM OBSERVATIONS ............................................ 21

FIGURE 7: EMS PROGRAM FUNCTIONS AND OBSERVED
          VALUES ......................................................................................... 24

FIGURE 8: RESPONSES TO QUESTIONS ON POTENTIALLY
          COMPROMISING SITUATIONS .................................................... 33




Audit 2013-14959

                                    TVA RESTRICTED INFORMATION
                   Audit 2013-14959 – TVA Environmental
                             Risk Management
                          EXECUTIVE SUMMARY

Why the OIG Did This Audit

Due to the importance to the Tennessee Valley Authority (TVA) and the
region of protecting the environment, we evaluated the effectiveness of TVA
processes for identifying and managing actual and potential environmental
issues and risks. TVA’s Environmental Management System (EMS) program
was established to manage environmental impacts of TVA operations and
help fulfill commitments of TVA’s Environmental Policy. Within this purpose,
EMS plays a significant role in managing environmental risks across TVA and
sustaining a high level of environmental compliance in TVA operations.
We planned to identify opportunities to improve TVA’s EMS program
elements and strategies for managing environmental risks.

What the OIG Found

Generally, TVA has effective processes for identifying and managing actual
and potential environmental issues and risks. However, we noted areas
where environmental risk management processes can be strengthened.
Specifically, we found environmental risks identified for business planning
could be more comprehensive, more clearly identified, and integrated
agency-wide in order to help ensure their recognition and resource
availability. In addition, weaknesses in environmental review processes
increase TVA risks and can be strengthened to demonstrate regulatory
compliance and due diligence in assessing the potential environmental
impacts of proposed agency decisions.

Many positive aspects of the EMS program were evident and demonstrated
effectiveness of functions related to environmental risk management.
However, we determined opportunities for enhancing TVA’s EMS exist
in communicating with regulators, coordinating planning processes,
emergency response preparedness, environmental training, and sharing
lessons learned.

By implementing the recommendations described in Table 1 on the following
pages, TVA can improve process efficiencies that will help sustain EMS
effectiveness in the face of current challenges and impacts from budget
constraints.

What the OIG Recommends

We recommend process improvements related to identifying risks and
integrating environmental information sources, system enhancements to
strengthen environmental reviews, and enhancements to EMS functions.
                                                                        Page i

                       TVA RESTRICTED INFORMATION
                   Audit 2013-14959 – TVA Environmental
                             Risk Management
                          EXECUTIVE SUMMARY

                                      Table 1

      Finding                                Recommendation
Some environmental      1. Coordinate with Operations to incorporate a process within
risks were not             strategic business units’ risk assessments to ensure all
considered in              business units with the potential for environmental impacts
strategic business         appropriately identify the associated risks and consider the
                           underlying risks common to multiple sites.
unit risk
assessments.
Environmental risks     2. Consider cost-effective methods to integrate tracking for all
and data tracked in        known environmental risks, requirements, commitments,
segregated sources         and issues for a more holistic approach to TVA
lack integration.          environmental risk management and trending of risk
                           management efforts. Improve information resource centers
                           to provide ready reference on environmental guides,
                           instructions, best practices, standards, regulations, lessons
                           learned, and other data sources needed to manage TVA’s
                           environmental performance and to improve consistency and
                           knowledge sharing across TVA.
TVA requirements        3. Revise TVA environmental procedures to better describe
and responsibilities       responsibilities for environmental reviews and update
for environmental          guidance to reflect current information. Work with TVA’s
reviews are not clear      Projects group to better describe requirements in project
                           management procedures for environmental reviews.
and guidance is
                           Include processes for identifying planned projects and
outdated.                  significant work that require but have not initiated an
                           environmental review.
Tracking system         4. Enhance system controls over data integrity and reliability
weaknesses provide         to improve the environmental review, documentation, and
opportunities for          closing processes.
errors or incomplete
documentation.
Communication with      5. Clarify roles for communicating with regulators in line with
regulators is not          the peer-to-peer approach reflecting level of responsibility
clearly understood         or severity of issues that includes environmental specialists
and can cause              on calls to regulators when possible.
unnecessary delays.
Internal coordination   6. Collaborate with personnel responsible for planning major
gaps can impact            maintenance work, property acquisitions, and idling plants
planning for some          to ensure environmental involvement is obtained for
processes.                 identifying and considering environmental risks.




                                                                                   Page ii

                        TVA RESTRICTED INFORMATION
                     Audit 2013-14959 – TVA Environmental
                               Risk Management
                            EXECUTIVE SUMMARY

        Finding                                Recommendation
  Emergency response       7. Collaborate with TVA personnel responsible for emergency
  preparedness risks          planning to (a) identify gaps in emergency planning
  are increased at            coverage; (b) improve plans for coordinating with local
  unstaffed TVA sites.        responders; and (c) identify personnel trained in emergency
                              response for covering unstaffed, small, and remote sites if
                              an environmental incident occurs. Leverage the work
                              initiated to provide consistency in Power Operations
                              emergency planning to improve emergency planning for
                              unstaffed, small, and remote sites.
  Orientation to          8. Complete efforts to identify skills progressions for
  environmental job          environmental representatives. Revise the environmental
  duties is inconsistent.    training program to require periodic refresher environmental
                               awareness training for all employees and contractors who
                               do not have regular environmental training based on job
                               duties. Consider options to provide additional and more
                               consistent direction to employees new to environmental
                               positions.
  Lessons learned are      9. Coordinate with TVA’s Projects and Operations Support to
  shared by informal          determine whether the planned lessons learned database
  methods.                    will provide the flexibility needed to identify environmental
                              lessons learned, near misses, and best management
                              practices; and how the Environment group will participate in
                              the database implementation and communicate availability
                              of this tool for finding potential options to prevent and
                              address environmental issues.


TVA Management’s Comments and Our Evaluation
TVA’s comments on the draft of this report are included in their entirety in the
Appendix. We incorporated these comments into the body of the report as
applicable. TVA management generally agreed with our recommendations,
except for suggested actions to address inconsistencies in emergency
response preparedness and require periodic environmental awareness
refresher training. The Office of the Inspector General concurs with the
actions planned and taken to address our recommendations.




                                                                                     Page iii

                           TVA RESTRICTED INFORMATION
Office of the Inspector General                                                             Audit Report


BACKGROUND
The Tennessee Valley Authority’s (TVA) approach to environmental risk
management involves enterprise level policies and strategies and a framework
for managing environmental impacts from operations. This approach has set
the tone for TVA’s commitment to responsible environmental stewardship.

TVA ENVIRONMENTAL POLICY AND STRATEGY

In support of TVA’s 2007 Strategic Plan, TVA established its Environmental
Policy in 2008 “. . . to provide cleaner, reliable and still-affordable energy, support
sustainable economic growth in the Tennessee Valley, and engage in proactive
environmental stewardship in a balanced and ecologically sound manner.”
TVA established an overarching framework within the Environmental Policy
to guide decision making and future strategic development of environmental
stewardship focus areas and climate change mitigation. The Environmental
Policy was updated to reflect TVA’s 2010 restated vision “. . . to become one of
the nation’s leading providers of low-cost and cleaner energy by 2020.” TVA’s
2011 Strategic Plan stated, “TVA will continue to strengthen its industry-leading
reputation in environmental stewardship of air quality, water resources, waste
minimization, sustainable land use, and natural resource management.”1

During 2011, TVA completed two parallel strategic plans to guide decisions for
20 years - the Integrated Resource Plan (IRP) to address the demand, options,
and potential impacts for power in the region and the Natural Resources
Plan (NRP) to guide TVA natural resource stewardship efforts and achieve the
objectives of TVA’s Environmental Policy. The IRP aligned with the
Environmental Policy and served as a guide for TVA to fulfill its energy mission.2
The NRP integrated the objectives of six resource areas3 to provide the optimum
public benefit, balance resource uses that sometimes conflict, and identify
benefits from implementing or improving TVA programs in the resource areas.
More recently, TVA has stressed environment as one of the three parts of the
strategic mission along with energy and economic development. TVA’s fiscal
year (FY) 2014 strategic imperatives include being a responsible steward of the
Valley’s natural resources.

To measure corporate performance of the stewardship imperative, TVA tracks
plant emissions and reportable environmental events (REEs) which indicate
when site permit conditions or other regulatory requirements may be violated and


1
    “Delivering the Vision,” September 2011, page 6, identified these five environmental stewardship focus
    areas.
2
    In 2013, TVA began an IRP update effort, which we are reviewing in a separate audit. Audit 2014-15080,
    Integrated Resource Planning Process (IRP), was announced in a November 19, 2013, memorandum
    from Assistant Inspector General Robert E. Martin to TVA Executive Vice Presidents.
3
    NRP resource areas are biological, cultural, and water resources; recreation; reservoir lands planning;
    and public engagement.
Audit 2013-14959                                                                                   Page 1

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                               Audit Report

external regulators must be notified.4 REEs are also being tracked by all
Operations’ business units (BU), reflecting their key role in identifying and
managing environmental risks in connection with core business activities.
TVA’s record of REEs has improved in recent years. Specifically, TVA reported
122 environmental events from 2008 to 2010; this total dropped by approximately
one-half to 60 events reported from 2011 to 2013. Two-thirds of TVA’s REEs for
2011 to 2013 involved discharges to water channels, permit exceedances, and
oil sheens in the river; the other one-third of REEs involved citations from
regulators, missed reports or samples, sewage spills, and asbestos removal.

TVA’s environmental functions have been managed by a variety of BUs during the
last few years. Effective with TVA’s 2012 reorganization, environmental functions
formerly residing in the Environment and Technology organization were partly
decentralized to TVA’s Engineering, Environmental, and Support Services within
the Generation strategic business unit (SBU) and to TVA’s Policy and Oversight
SBU. With the 2014 reorganization, most of these functions were again
centralized in TVA’s new Environment organization within the Operations SBU.

After redesigning the organizational structure in the current FY, TVA updated
performance measures and added a measure for reputation based on both
favorable and unfavorable issues reported in the media. This measure has
included coverage related to the environmental damage and progress in cleanup
of TVA’s Kingston Fossil Plant ash spill, possible groundwater pollution around
coal plants, decisions to close coal plants, increased use of hydroelectric and
gas generation, and focus on renewable energy programs.

TVA ENVIRONMENTAL MANAGEMENT SYSTEM
To help manage the environmental impacts of TVA operations and activities
for continual improvement in environmental performance and to help fulfill
commitments of TVA’s Environmental Policy, TVA established the TVA
Environmental Management System (EMS). The TVA EMS5 is a framework
of environmental responsibilities and program elements which, according to
TVA-SPP-05.0, Environmental Management System,6 “. . . helps to ensure that
resources are properly deployed and that management plays an active role in
evaluating progress and making decisions towards continual improvement” and
“. . . standardizes the functions performed across the TVA organizations to
support both performance improvement and efficiency.” The EMS applies to all
TVA sites and personnel and includes all TVA activities and operations subject to
TVA’s Environmental Policy, such as power generation and transmission, river
operations, land and reservoir management, economic development, and
supporting administration. The EMS framework and program elements are
depicted in Figure 1 on the following page.
4
    For purposes of this report, we relied on REEs as reported and did not evaluate the appropriateness or
    completeness of reported REEs.
5
    TVA’s EMS is a concept for implementing program elements, not an electronic system.
6
    Effective November 14, 2012.
Audit 2013-14959                                                                                     Page 2

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                        Audit Report

              Figure 1: TVA EMS Framework and Program Elements7




EMS defines environmental risk as the element of TVA’s activities, products,
or services that can interact with the environment and adversely affect the
achievement of TVA’s core business objectives. EMS program elements are
designed to identify and manage the environmental risks of TVA operations and
activities8 and to establish and maintain programs to achieve environmental
objectives in support of business planning.9 The Environment group provides
input to TVA’s Enterprise Risk Management (ERM) process regarding
commitments outlined in TVA’s Environmental Policy and risks with the potential
to significantly affect the environment. SBUs use a risk assessment process
included in the ERM program to identify and rate operational risks, including
environmental, and develop risk management plans for mitigating the identified
risks. The ERM process considers the SBUs’ assessments in ranking risks from
a TVA-wide perspective. TVA’s Environment group also identifies environmental
risks when collaborating with BUs to track and manage site-level environmental
remediation and compliance activities.

As part of the EMS Compliance Planning and Environmental Reviews program
element, TVA conducts environmental reviews in order to identify potential
environmental impacts of proposed actions and comply with the National
Environmental Policy Act (NEPA). The NEPA legislation10 established a national
7
     From TVA-SPP-05.0, §3.2, Program Elements. For purposes of this report, we utilized the Standard
     Programs and Processes (SPP) as a guide for environmental risk management processes and criteria
     for evaluating effectiveness, but did not audit compliance of TVA’s EMS to all SPP requirements.
8
     TVA-SPP-05.0, §3.2.2, Environmental Strategy and Planning.
9
     TVA-SPP-05.0, §3.2.4, Environmental Objectives and Business Planning.
10
     Public Law 91-190, 42 USC 4321-4370(d), as amended, and the 2005 Implementing Regulations 40 CFR
     Parts 1500-1508.
Audit 2013-14959                                                                              Page 3

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                              Audit Report

policy requiring federal agencies to make decisions based on understanding
of environmental consequences and to take actions that protect, restore, and
enhance the environment. Achievement of NEPA goals is enforced through
shared responsibilities of the President, federal agencies, and the courts.
TVA’s environmental procedure refers to TVA Instruction IX Environmental
Review,11 which TVA adopted as implementing procedures with the approval of
the NEPA oversight council.12 TVA Instruction IX describes TVA’s NEPA review
requirements and is available on TVA’s public Web site. TVA’s environmental
procedure also refers to the TVA NEPA Reference Manual (NRM),13 which
provides detailed guidance for implementing NEPA reviews and is available on
TVA’s EnviroNet internal Web site.

According to the NRM, NEPA reviews provide the environmental component
of TVA planning and are designed to identify and minimize potential impacts to
natural resources. NEPA reviews are used to manage TVA internal resources
for ensuring TVA considers the impacts on the environment before making
decisions on any proposed actions. The NEPA process is intended to help TVA
understand potential impacts to the environment that could result from actions
proposed by TVA or applicants seeking TVA approval or assistance. The
majority of NEPA reviews are documented as Categorical Exclusion Checklists
(CEC) for proposed actions that qualify for exclusion by being in a category of
actions that normally do not have a significant impact on the environment and
no exceptional circumstances exist. More thorough NEPA reviews, known as
Environmental Assessments (EA) and Environmental Impact Statements (EIS),
are conducted when proposed actions have the potential for significant
environmental impacts or substantial public controversy. TVA uses the ENTRAC
system to document CECs and track commitments14 from all types of NEPA
reviews. All new ENTRAC users must complete training on a NEPA overview.

OBJECTIVE, SCOPE, AND METHODOLOGY
Due to TVA’s stewardship imperative and the importance to TVA and the region
of protecting the environment, we evaluated TVA’s management of
environmental risks. The audit objective was to evaluate TVA's effectiveness in
identifying and managing actual and potential environmental issues and risks.
We also planned to identify opportunities to improve EMS program elements and
strategies for managing environmental risks. We focused on environmental risks
identified from 2011 to 2013 and TVA processes for managing environmental
risks. Where we selected items for more detailed testing, we used nonstatistical
sampling methods, except as described below, that were not intended to project

11
     TVA Procedures for Compliance With the National Environmental Policy Act, published in August 1980
     and amended in December 1982 and April 1983.
12
     The Council on Environmental Quality was established by Congress in 1969 to oversee federal agency
     implementation of the NEPA process.
13
     NRM Revision 01, effective April 9, 2010.
14
     NRM, §2-3.I, describes commitments as specific measures, precautions, conditions, or safeguards that
     will avoid, eliminate, or reduce potential environmental impacts from proposed actions.
Audit 2013-14959                                                                                    Page 4

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                            Audit Report

the results to the entire population being tested. Our review occurred before and
during TVA’s 2014 reorganization efforts and, to the extent information was
available, reflects organizational changes completed through 2nd quarter FY2014.
Our audit did not include testing for compliance with environmental regulations.

To achieve our objective, we:

     Reviewed TVA guidance including TVA-SPP-05.0, other relevant SPPs, the
      NRM, and Instruction IX for information on policies, procedures, and control
      activities related to TVA environmental reviews and risk management.
      Although we tested some system controls relevant to our audit, we did not
      perform detailed testing of internal controls or evaluate compliance with all
      relevant TVA procedures. Our intent was simply to gain an understanding
      of activities and responsibilities within TVA environmental risk management
      processes and identify criteria for evaluating effectiveness.
     Conducted limited examination of TVA project management procedures
      to identify project responsibilities for conducting environmental reviews.
      Specifically, we reviewed instructions related to environmental reviews
      described in TVA procedures on project management,15 development,16
      process,17 closure,18 and other processes.
     Reviewed Environmental Protection Agency (EPA) principles of environmental
      management19 to identify best practices for ensuring responsible
      environmental performance that is proactive, flexible, cost-effective, integrated,
      and sustainable. Where sufficient information was obtained during the audit,
      we used the EPA guide as input for identifying potential improvements in use
      of information, emergency preparedness, environmental training, and other
      aspects of TVA’s EMS structure and processes.
     Reviewed 2nd and 4th quarter FY2013 enterprise and SBUs’ risk assessments
      to identify risks with potential environment impacts. We used professional
      judgment to identify changes in projected trends and to determine whether
      TVA’s enterprise risk map adequately reflected environmental risks that could
      substantially impact TVA operations and business.
     Identified organizational changes that occurred immediately before and during
      our audit to assess potential impacts to environmental risk management
      functions.
     Identified environmental liabilities included in TVA’s annual reports for
      FY2010 through FY2013 as indicators of legacy environmental issues and
      reviewed processes for identifying the liabilities and their expected costs.

15
     TVA-SPP-34.0, Project Management, effective April 1, 2013.
16
     TVA-SPP-34.011, Project Development and Integration, effective August 27, 2012.
17
     TVA-SPP-34.019, Project Process, effective October 1, 2012.
18
     TVA-SPP-34.017, Project Closure, effective October 1, 2011.
19
     Implementation Guide for the Code of Environmental Management Principles for Federal Agencies,
     developed by EPA, March 1997.
Audit 2013-14959                                                                                 Page 5

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Audit Report

   Reviewed and tested documentation for a sample of NEPA CEC reviews to
    determine whether the CECs were adequately documented, reviewed, and
    completed. For the period from FY2011 through FY2013, we identified
    5,861 CECs and tested 51 CECs selected using nonstatistical sampling
    methods. Of the 51 CECs, 35 CECs represented reviews initiated by
    27 different preparers to cover reservoir and land use permits for a variety
    of projects and proposed work at corporate, coal, gas, hydro, nuclear, and
    transmission sites. The remaining 16 CECs were coded as business
    sensitive and were tested because access to documentation for these
    reviews was restricted to designated users.
   Reviewed data from several TVA systems used to identify and track
    environmental risks and management activities, including commitments for
    reducing potential environmental impacts identified from all types of NEPA
    reviews, to evaluate the adequacy of tracking mechanisms. We did not
    assess the adequacy of NEPA reviews in this audit.
   Interviewed 114 personnel from multiple environmental, support, and
    corporate BUs regarding activities related to identifying and mitigating
    environmental risks. We used the information in conjunction with supporting
    documents and professional judgment to identify common themes and
    opportunities to improve TVA environmental risk management strategies.
    We identified a total of 290 individuals who, as of May 15, 2013, had
    designated environmental duties. We interviewed 31 percent of this
    population in an approach that combined a sample of 71 individuals and
    18 individuals working with the sites identified in Figure 2 on the following
    page. We also interviewed 25 personnel affiliated with the sites we visited
    to obtain operational perspectives. We used both random and nonstatistical
    methods to select our sample that were not intended to project the results to
    the entire population of all TVA environmental functions.
   Corroborated information described during interviews and reinforced our
    understanding of TVA risk management processes by:
     Reviewing over 200 documents provided by our interview sources;
     Reviewing internal EAs selected using nonstatistical methods to gain an
       understanding of the assessment process and results; and
     Observing meetings with regulatory policy teams covering air, water, and
       waste media, and natural resources, an emergency drill, an environmental
       corrective actions review, meteorological instrumentation committee, and
       site environmental block training.
   Discussed TVA environmental risk management practices and remediation
    activities with a state and a federal regulator to gain external oversight
    perspectives.
   Visited a variety of TVA sites with stakes in environmental risk management
    to observe environmental conditions, identify ongoing actions for managing
    related risks, and gain site perspectives of TVA environmental functions.

Audit 2013-14959                                                              Page 6

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                     Audit Report

    We selected a nonstatistical sample consisting of the 27 TVA facilities listed
    in Figure 2 representing a broad cross section of TVA operations based on
    type, location, responsible organization, and distinguishing operational
    functions.

                                  Figure 2: TVA Sites Visited
                      Site                       Type                   Location
             Browns Ferry                     Nuclear Plant              Alabama
                   Colbert                Coal and Gas Plants            Alabama
              Guntersville                     Hydro Plant               Alabama
                                     Environmental Research Center,
                                     Power Support Services, Service
             Muscle Shoals                                               Alabama
                                       Center, Distribution Center,
                                         Radiological Laboratory
             Widows Creek                      Coal Plant                Alabama
                                            Hydro Plant and
              Blue Ridge                                                  Georgia
                                           Generation Project
               Paradise                        Coal Plant                Kentucky
               Hiwassee                        Hydro Plant             North Carolina
                                       Coal Plant, Emergency Drill,
                   Gallatin                                             Tennessee
                                        Generation Capital Project
               Greenway                Transmission Service Center      Tennessee
              John Sevier                 Coal and Gas Plants           Tennessee
                                             Coal Plant and
                   Kingston                                             Tennessee
                                          Ash Recovery Project
                   Ocoee                      Hydro Plants              Tennessee
               Sequoyah                       Nuclear Plant             Tennessee
                                              Hydro Plant,
               Watts Bar                  Maintenance Facility,         Tennessee
                                         Nuclear Capital Project


We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.




Audit 2013-14959                                                                          Page 7

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                       Audit Report


FINDINGS AND RECOMMENDATIONS
TVA processes for identifying and managing actual and potential environmental
issues and risks are generally effective. However, we noted areas where
processes can be strengthened for identifying environmental risks, integrating
environmental risk and information sources, and reinforcing the environmental
review processes.

Many positive aspects of the EMS program we observed demonstrated
effectiveness of functions related to environmental risk management. However,
we determined opportunities for enhancing TVA’s EMS exist in communicating
with regulators; coordinating planning processes for major maintenance work,
property acquisitions, and idling of plants; emergency response preparedness;
environmental training; and sharing lessons learned.

ENTERPRISE ENVIRONMENTAL RISKS ARE INCOMPLETE

As previously described, TVA identifies environmental risks in several ways that
represent the enterprise, SBU, and site perspectives. However, environmental
risks identified by SBUs in FY2013 for business planning did not adequately
reflect some risks that could affect numerous TVA sites. TVA environmental risk
management also relies on information from several segregated sources.

Some Environmental Risks Were Not Considered in SBU Risk Assessments
TVA’s risk management program involves operational and environmental risks
identified in SBUs’ risk assessments and enterprise-level environmental
commitments and potentially significant risks. Site-level environmental risks
are identified within processes to track and manage remediation and compliance
activities. At the end of FY2013, ERM ranked 142 TVA enterprise-wide risks
using input from SBUs’ risk assessments. We identified 36 of these risks that
included some level of potential environmental impact described with the risk,
emerging issues, probability, or consequences. From those 36 risks, we
identified the top 10 risks with potential direct impacts to the environment and
probabilities of occurrence rated higher than unlikely. These 10 risks were
ranked by SBUs as high to medium and are shown in Figure 3, on the following
pages, based on overall rankings from an enterprise operations perspective.
With minimum costs estimated at $1.5 billion through 2025 to address 3 of these
risks, the potential impacts to TVA operations are substantial. According to
TVA’s ERM staff, this enterprise risk perspective and TVA’s risk assessment
methodology are being revised during FY2014 to reflect changing operational
and funding conditions and to more clearly address risk thresholds, risk
tolerance, and residual risk.




Audit 2013-14959                                                            Page 8

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                 Audit Report

        Figure 3: FY2013 Highest Ranked Enterprise Environmental Risks

                                        Relation to Environment and                           Identifying
            Risk
                                              Potential Impact                                   BU20
                                                                                                           22
Lack of wastewater             Inability to close ash ponds for converting to dry              Projects
treatment capability            storage.
                               More stringent wastewater treatment guidelines are
                                expected.
                               Estimated costs of $1.2 billion through 2022.
                                                                                  21


Key supplier failure to  Environmental spills and hazardous waste disposal.                  Supply Chain
perform                  Harm to TVA projects, programs, and operations
                                 with potentially severe financial impact.
Remediation of                 More stringent requirements over previously closed               Projects
closed coal                     disposal areas are expected in 2014.
combustion residuals           Uncertainty and possible major financial impact.
(CCR)23 facilities
Groundwater tritium            Groundwater contamination.                                   Nuclear Power
                               Damage to public image and increased regulatory
                                scrutiny.
                               Minimum estimated potential losses of $10 million
                                per event.
Seismic remediation            More stringent regulatory seismic requirements are               Projects
of CCR                          possible.
impoundments                   Major financial impact and growing concerns
                                around CCR.
TVA environmental              Compliance with increasing regulatory                          Environment
compliance                      requirements.
                               A combination of financial, public image, and
                                environmental impacts.
316b regulation risk           EPA regulatory compliance.                                   Nuclear Power
(Clean Water Act)              Estimated $250 million for TVA-wide upgrades to
                                cooling water intake screens and systems by 2021.

Impact of                      Growing costs of implementing regulations.                     Environment
environmental                  Increasing requirements and scrutiny of
compliance on                   environmental compliance with impacts to costs
performance,                    and reputation.
reputation, and
overall costs


20
     The BU recognized the risk to operations and designed risk mitigation strategies. Some risks can impact
     operations TVA-wide or in multiple SBUs.
21
     Costs estimated for remediating the identified risk reflect project costs beyond addressing the
     environmental impacts.
22
     An Operations BU, formerly Generation Construction.
23
     CCR refers to the materials that remain after burning coal, commonly called coal ash, and includes fly ash,
     bottom ash, boiler slag, and gypsum.
Audit 2013-14959                                                                                       Page 9

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                     Audit Report


                                         Relation to Environment and                              Identifying
            Risk
                                               Potential Impact                                      BU20

Reputational impact     Potential environmental events.                                          Environment
of Kingston-like event  Lingering concerns about public trust and potential
                                  for significant reputational harm.

Environmental          Violation of existing regulations.                                           Projects
regulatory compliance  Potential damage to the environment and financial
                                  impacts.
                                $8.2 million funded for automating instrumentation
                                 at coal ash impoundments in FY2014.


By considering risks included in the ERM process, identified by the Environment
group from ongoing remediation activities, and described during interviews, we
identified some gaps in the enterprise view of environmental risks related to
omission of known risks and discrepancies in SBUs’ risk ratings. It is necessary
to clearly identify environmental risks in order to help ensure their recognition
among competing priorities and resource availability into the future. TVA’s view
of environmental risks at an enterprise level should reflect identified exposures
and be transparent to internal staff to demonstrate accountability and support
proper planning and mitigation.

     The Transmission and Nuclear Construction24 BUs did not expressly include
      risks with environmental impacts in their ERM risk assessments. Specific
      areas of concern for Transmission operations discussed during interviews for
      this audit include potential (1) impacts from the presence of sensitive species
      habitats when installing transmission lines and maintaining rights-of-way that
      cover thousands of miles per year; and (2) for spills from equipment and fuels,
      a risk that was rated by most other TVA groups at a medium level. In addition,
      the Environment group identified removal of polychlorinated biphenyls (PCB) 25
      contaminated equipment among site-level risks as an ongoing system-wide
      Transmission risk. Similarly, the Nuclear Construction group can encounter
      equipment and fuel spills. Additionally, the large number of personnel and
      moving parts on the Watts Bar Nuclear Plant’s construction site increases
      the potential for incidents affecting the environment.
     Similarly, Coal Operations’ BUs did not adequately represent two risk areas
      with potential impacts to multiple sites from potential groundwater
      contamination and monitoring mercury emissions in their ERM risk
      assessment to reflect broader multi-site risks. The Environment group
      identified ongoing groundwater contamination risks at eight Coal Operations’

24
     Nuclear Construction transitioned in 2014 to the Nuclear Power Group’s (NPG) Watts Bar Unit 2
     Construction BU.
25
     PCB refers to manufactured organic but toxic chemicals that were widely used due to their electrical
     insulating properties in electrical, heat transfer, and hydraulic equipment and other industrial applications.
     PCB manufacture was banned in 1979.
Audit 2013-14959                                                                                          Page 10

                                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                Audit Report

      sites, which were rated with moderate to severe potential impacts such as a
      reportable event or regulatory violation with fines. Groundwater risks were
      discussed during interviews for this audit in relation to managing wells and
      monitoring impacts to groundwater. The Environment group also identified
      risks related to the lack of mercury monitors and long-term data on mercury
      emissions at eight coal plants, which were rated with high probability of
      severe potential impacts, such as violations and fines associated with
      changing regulations.
     Two Operations’ BUs rated specific environmental risks in the ERM process
      lower than the expected level of exposure or probability of occurrence.

      1. River Operations rated “Compliance with Existing Environmental
         Regulations” as a potentially minor consequence at the end of FY2013,
         which was reduced from the midyear ranking of moderate. According to
         ERM guidelines, a minor consequence would affect TVA property only.26
         The moderate rating is justified, in our opinion, by the plants’ proximity to
         the river system, limited staff availability at some plants where only day
         shifts are worked or where no personnel are assigned, and reliance on
         the public to report sightings of environmental issues when staff is not
         present to respond. These factors could also increase risks that
         environmental incidents will not be reported timely and will affect property
         other than TVA sites.

      2. NPG rated “PCB Transformers” as an unlikely probability while stating
         that likelihood is slightly above even odds.27 The risk of spills from
         PCB-contaminated equipment was justified by the aging and degrading
         condition of equipment and a past PCB explosion event at one of TVA’s
         nuclear plants. NPG’s rationale supports a minimum likelihood rating of
         even odds for the PCB Transformers risk. In addition, the cost of
         remediating PCB risks across TVA by 2025 was estimated at
         $72.5 million.

Recommendation 1 – Coordinate with Operations to incorporate a process
within SBUs’ risk assessments to ensure all BUs that perform activities with the
potential for environmental impacts appropriately identify the associated risks
and consider the underlying risks common to multiple sites.

TVA Management’s Comments – Agree; this improvement was implemented in
May 2014. The Environment group shared risk matrices with each SBU/BU
during business planning and continues to work with ERM and Business
Planning to ensure processes and information are aligned. TVA will update its
EMS by March 2015 to describe this practice.

26
     TVA-SPP-13.17.1, Enterprise Risk Management Guidelines, effective July 19, 2011, defines a moderate
     environmental consequence as minor localized off-site environmental damage.
27
     ERM Guidelines define even odds as a 50-percent probability that the event will occur in the next 36 to
     60 months.
Audit 2013-14959                                                                                    Page 11

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                       Audit Report

Auditor’s Response – The Office of the Inspector General (OIG) concurs with
management’s planned and completed actions.

Environmental Risks and Data Tracked in Segregated Sources Lack
Integration
We identified numerous sources of information on TVA environmental risks,
concerns, commitments, corrective actions, and other activities. Several sources
capture TVA environmental risks at various levels and some information sources
are tools actively used for managing those risks, as described in Figure 4
(see pages 13-16) along with the relevant EMS sections. However, we identified
no single method or mechanism for TVA to integrate risks, commitments, and
issues from the multiple sources that would provide a comprehensive view of
TVA’s environmental risk landscape. Completely understanding and managing
TVA environmental risks is more difficult when multiple sources capture
individual risks and other relevant information without being integrated or
centralized. This wide array of environmental information also makes it difficult
to know where to find the right information needed for specific activities.

We observed use of a variety of data sources at a wide range of levels by various
BUs. Environmental risk identification, environmental process awareness,
environmental procedures, corrective actions, and compliance records all serve
to document TVA activities for managing environmental risks, mitigation plans,
and remediation. However, many of TVA’s information sources reside in
individual files that require manual updates and, along with the use of
desegregated share drives, fosters a silo approach to environmental
management functions instead of providing the integrated approach expected
in TVA’s EMS. Issues and commitments for specific TVA assets and sites
should be retrievable from integrated sources to improve process efficiencies
and effectiveness of environmental functions. In addition, links to outdated or
irrelevant information can invite unwarranted criticism from outside groups who
may take elements out of context or draw inaccurate conclusions from
information made public.

TVA’s EMS established two primary environmental information centers, including
the EnviroNet for agency-wide communication and the Electronic Document
Management System (EDMS) as TVA’s official repository for environmental
records, among many other types of documents. EnviroNet documents cover
environmental policy, procedures, and guides; roles and responsibilities;
inter-agency and utility group members; scheduled assessments; and report
frequencies. EDMS includes a collection of regulatory and compliance records,
such as environmental permits and applications, regulator correspondence,
laboratory results, management reviews, event reports, inspections, and cleanup
records. During our audit, the Environment group launched the Environment
Viewer, an automated tool that ties TVA facilities on an interactive map to the
EDMS repository of permits, correspondence, and other environmental



Audit 2013-14959                                                           Page 12

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                             Audit Report

documentation.28 While EnviroNet serves to communicate environmental
information and EDMS serves as a centralized repository, neither system
provides the integration needed for agency-wide and site-level monitoring and
trending. In addition, a central repository of best management practices (BMP)
and environmental standards for supporting mitigation activities would strengthen
TVA’s NEPA process and TVA’s overall efforts to comply with environmental
requirements.

EPA best practices state information management can contribute to an
organization’s success when the EMS is integrated throughout the agency and
provides the ability to swiftly and efficiently digest data and respond to rapidly
changing conditions. Providing easy access and integration of environmental
information available across TVA could help incorporate this standard for
meeting TVA’s environmental stewardship mission. Effective integration of
environmental information and improvements in data management could
increase opportunities for TVA personnel to know about possible concerns in
a timely manner, prevent missing important obligations, minimize loss of
knowledge, and improve chances of avoiding costly and damaging incidents.

                 Figure 4: Environmental Risk and Information Sources
       Source/                   Purposes and                  Administering
                                                                                  Concern or Gap
     EMS Section                  Significance                     BU
                         Identify and rank enterprise-        ERM              Risk management by
                          level risks to assist SBUs’                            stand-alone
 SBU Risk                 planning.                                              spreadsheets.
 Assessments;            Prioritize enterprise risks to                        Manual update
 ERM Risk                 support SBUs’ strategic and                            processes.
 Ranking                  tactical decision making for
 (EMS 3.2.2A)             managing risks across TVA.
                         36 environmental-related
                          risks identified for FY2013.

                         Identify regulatory, long-term,      Operational &    No easy method of
                          and process obligations for          Regulatory        identifying
                          increased transparency of            Assurance         environmental
                          accountability for compliance                          obligations.
                          across TVA.                                           Does not provide links
 Compliance
 Register                138 environmental                                      to standards or
 (EMS 3.2.3A,             obligations identified as of                           documents.
                          February 4, 2014.                                     No mechanism for
 EMS 3.2.12A)
                                                                                 identifying trends.
                                                                                Not a comprehensive
                                                                                 list of regulatory
                                                                                 requirements.




28
      We did not evaluate the tool’s functions or effectiveness.
Audit 2013-14959                                                                                 Page 13

                                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                                        Audit Report


       Source/                  Purposes and              Administering
                                                                             Concern or Gap
     EMS Section                 Significance                 BU
                        Provides risk-based timeline,    Environment      Not easily incorporated
 Environmental           analyses, and forecasts for                        with other risk sources.
 Outlook                 changing conditions in
 Document                environmental regulations
 (EMS 3.2.3C,            over a 10-year period.
 EMS 3.2.4C)             Supports business planning
                          processes.

                Manage site-specific                     Environment      Risk and mitigation
                 environmental risks and                                    management by stand-
                 issues collaborated between                                alone spreadsheets.
 Environmental   Operations and Environment                                Manual processes to
 Risk            groups.                                                    identify risks and
 Compliance             Over 90% of the risks being                        update the matrix.
 Matrix                  tracked relate to Coal,
 (EMS 3.2.4D,            Nuclear, or Gas Operations.
 supports               Share information on
 EMS 3.2.13)             incidents and near misses.
                        291 environmental-related
                         risks identified FY2013.

 Corrective     Identify and record                      Operations       Difficult to obtain
 Action          environmental deficiencies,              Support           information for trending
 Program;        issues, and corrective                                     and analysis.
 Problem         actions.                                                  Use of keyword
 Evaluation     Document lessons learned.                                  searches to find
 Reports                                                                    relevant information.
 (EMS 3.2.13A)
                        Identify and document            Environment      No process to evaluate
                         commitments from NEPA                              potential risks
                         reviews for mitigating                             holistically over time.
                         environmental risks of                            Tracking completion
                         proposed actions.                                  of reviews and
                        Document BMP and project
                                                                                          29
                                                                            commitments.
 CECs; NEPA              instructions.
 Commitments            Document work activities to
 (EMS 3.2.3E)            demonstrate compliance.
                        Provide basis for responding
                         to public requests for
                         information.
                        1,438 open commitments as
                         of January 31, 2014.




29
      See related discussion on page 17 of this report.
Audit 2013-14959                                                                            Page 14

                                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                                          Audit Report


       Source/                Purposes and                Administering
                                                                                Concern or Gap
     EMS Section               Significance                   BU
                       Identify potential TVA            Financial           Manual update
                        liabilities for legacy            Operations &         processes.
                        environmental issues.             Performance
                        Examples:
                         Muscle Shoals
                           Redevelopment cleanup.
 Financial               Reclamation at mining
 Reports                   property.
 (supports               Disposal of PCB-
 EMS 3.2.2,                containing equipment.
 EMS 3.2.4)              Cleanup and monitoring at
                           generation sites.
                       $16 million in environmental
                        liabilities reported for
                        FY2013; reduced from
                        $23 million reported for
                        FY2010.
                                                                        30
                       Track waste shipments by          Environment         Stand-alone database.
 Waste                  unit, type, and source.
 Management            Provide cost and tracking
 Database               reports.
 (EMS 3.2.8)           Retain records for regulatory
                        compliance.

                       Central document repository.      Information         No mechanism to
                                                          Technology           identify trends.
                                                                              Complex
 EDMS                                                                          documentation
 (EMS 3.2.8B,                                                                  structure;
 EMS 4.2)                                                                      “EDMS Information -
                                                                               Environmental Matrix”
                                                                               was a 13-page list as
                                                                               of September 2012.
                       Provide information agency-       Environment and  BUs often restrict
                        wide.                             individual BUs    access to sites and
                        EnviroNet Examples:                                 share drives which are
                         Environmental Policy                              less widely used
 Internal online          updates.                                          across TVA.
 sites and               Facilities and                                      Some information is
 organizational           Environmental Site                                   outdated.
 share drives             Contacts.                                            EnviroNet Examples:
 (EMS 3.2.6,           Provide information and a                               “Signatory Matrix”
 EMS 3.2.7A)            means for BUs to                                         dated October 3,
                        collaborate.                                             2011.
                        Example:                                                TVA Reports on
                        Transmission Environmental                               Executive Orders for
                        Compliance site includes                                 2002 through 2009.

30
      Previously administered within Power Service Shops BU.
Audit 2013-14959                                                                               Page 15

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                    Audit Report


   Source/                 Purposes and              Administering
                                                                         Concern or Gap
 EMS Section                Significance                 BU
                     bulletins, procedures, and                          Environmental
                     contacts, among other                                Footprint
                     features.                                            “Benchmark
                                                                          Performance” posted
                                                                          only for
                                                                          August 2010.
                                                                         Bulletin Board last
                                                                          updated in 2008.

                    Provide information to          Communications  Some information is
                     stakeholders and public.        and Environment  outdated.
                     Examples:                                        Examples:
External              Overview of TVA’s EMS.                          Corporate
online sites          Environmental Reviews                            Environmental
(EMS 3.2.1B,           (NEPA).                                          Reports for 1999
EMS 3.2.7A)                                                             through 2008.
                                                                       Reservoir Monitoring
                                                                        data not updated
                                                                        after 2011.
                    Provide TVA-wide                Environment       Requirements could be
                     environmental guidance.                            forgotten or missed if
TVA-level                                                               not identified and
                    22 SPPs provide baseline
procedures                                                              managed as an
                     EMS procedures.
(EMS 3.2.5,                                                             integrated,
EMS 3.2.8)          26 Environmental Guidance                          comprehensive list.
                     documents and Technical
                     Instructions.
                    Implement compliance            Individual BUs    Numerous documents
                     activities at sites or by                          at varying levels.
                     organizations.                                    Potential duplication or
                    408 Environmental                                  conflicting instructions.
                     Management guidance                               Not widely shared
                     documents, including:                              between BUs.
                      BU-level SPPs (85).
Site-level or         Coal & Gas Technical
group-level            Instructions (187).
instructions          River Operations
(EMS 3.2.5B)           Maintenance Procedures
                       and Integrated Pollution
                       Prevention Plans (56).
                      Power Service Shops
                       Process Assurance
                       Procedures (24).
                    79 additional procedures with
                     “Environmental” in the title.




Audit 2013-14959                                                                         Page 16

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Audit Report

Recommendation 2 – Consider cost-effective methods, including automated
solutions, to integrate tracking for all known environmental risks, requirements,
commitments, and issues for a more holistic approach to TVA environmental risk
management and trending of risk management efforts. Improve information
resource centers to provide ready reference on environmental guides,
instructions, best practices, standards, regulations, lessons learned, and other
data sources needed to manage TVA environmental performance and to improve
consistency and knowledge sharing across TVA. Incorporate actions on sharing
lessons learned described in Recommendation 9 of this report.

TVA Management’s Comments – Agree; improvements are underway.
TVA is aware and follows industry developments in environmental management
and finds that, currently, there is not a cost-effective solution integrating “all”
known environmental items listed. The Environment group is updating web
resources and links and now has one organization dedicated to managing
performance reporting and tools. TVA will update its EMS by March 2015 to
describe this organization’s responsibilities.

Auditor’s Response – The OIG concurs with management’s planned and
completed actions. While we agree any solution to further integrate
environmental information must be cost-effective, we also encourage TVA
management to leverage existing and developing automation tools to improve
integration of information sources at the earliest possible opportunity.

TVA NEPA PROCESS WEAKNESSES INCREASE RISKS
As described in the Background section of this report, the NEPA process is
the environmental part of TVA planning and a principal element of TVA
environmental risk management processes with the overarching goal of
minimizing impacts to natural resources. During FY2011 through FY2013,
TVA initiated 5,861 CECs and identified 1,548 commitments from NEPA reviews.
Due to increased public and regulatory scrutiny and the need to withstand court
challenges, it is increasingly important for TVA to have the right processes in
place that demonstrate due diligence for conducting environmental reviews.
Successful completion of NEPA reviews involves cooperation from environmental
staff, project managers, and both operations and support personnel.

We identified weaknesses in TVA NEPA processes that increase risks and
opportunities for errors due to unclear requirements and responsibilities for
NEPA reviews, ENTRAC system deficiencies, and outdated instructions and
fragmented standards.

TVA Requirements and Responsibilities for NEPA Reviews Are Not Clear
and Guidance is Outdated
Requirements and responsibilities for conducting NEPA reviews are described
in TVA procedures and guidance documents. When TVA projects are subject to
NEPA review, project managers get guidance from TVA project procedures and

Audit 2013-14959                                                              Page 17

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Audit Report

the NRM. TVA project management procedures, which we identified on
page 5 of this report, refer to environmental requirements and reviews as a
project management program element and part of project scoping and
engineering activities. However, TVA environmental procedures do not clearly
identify some key responsibilities and steps for performing NEPA reviews and
some references to environmental reviews by project management procedures
are incomplete or conflict with requirements. In addition, guidance documents
contain outdated information and could misdirect external applicants requesting
TVA approval of actions to non-existent TVA offices. Our specific concerns are
described in Figure 5 on the following pages.

As stated in the NRM, “Including the NEPA process early in the planning stages
lessens the risk of costly delays and last-minute ‘surprises’.” Projects should
include adequate time early in proposal stages to allow for regulatory processes
outside of TVA control, and project procedures state BU and construction
management are responsible for ensuring schedule and budget pressures do not
compromise project environmental expectations, standards, and results. Several
sources stated BUs that involve the Environment staff early with projects are
well situated to plan for and contain environmental costs instead of incurring
costly project delays if environmental requirements are not identified as part of
project planning. TVA’s Projects group described a current practice of including
environment in the Joint Project Team during project initiation. This practice was
not clearly described in project procedures, which according to TVA Projects staff
are being revised in FY2014 to better clarify requirements.

Without specific instructions in TVA procedures on responsibilities for initiating,
performing, and completing NEPA reviews, TVA increases risks that projects
could be initiated without required reviews or encounter delays from
unanticipated environmental requirements, the NEPA guides could be
overlooked, or personnel could view environmental review responsibilities as
ancillary rather than required. Updates in NEPA guidance, more specific
instructions on NEPA responsibilities, and identification of key steps in both the
environmental and project management procedures could strengthen TVA’s
NEPA processes to direct personnel on when and how to complete
environmental reviews before projects are initiated and to document project
compliance with commitments when projects are implemented. A strong NEPA
process is necessary for meeting regulatory requirements to assess the potential
environmental impacts of proposed agency decisions.




Audit 2013-14959                                                             Page 18

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                            Audit Report

                    Figure 5: Gaps in TVA NEPA Process Guidance

       Source                   Areas Covered                          Gaps or Concerns
                        Describes responsibilities of the       Does not identify responsibilities in
                                           31
                         Environment group for                    other TVA groups for actively
                         conducting environmental                 initiating or completing
                         reviews.                                 environmental reviews.
 Environmental
                        Identifies NEPA process guidance  Does not outline key steps in the
 Procedure               for internal and public audiences   NEPA process or describe basic
                         in the NRM and TVA                  NEPA review requirements.
                         Instruction IX.                    Does not identify a minimum cycle
                                                             for reviewing the NRM.
                        Describe basic instructions         Place environmental reviews
                         related to environmental reviews.    during detailed engineering rather
                        Identify environmental resources     than as part of project study and
                         such as procedures and               preliminary engineering or before
                         guidance, specialists, discussions   project initiation in line with NRM.
                         during scoping activities, inputs     Draft project management plans
                         for the project management plan,       and anticipated contract
 Project                                                        arrangements could both be
 Management              and goals as part of project
                         performance.                           completed without considering
 Procedures                                                     environmental requirements if
                                                                environmental reviews are not
                                                                conducted until later in the
                                                                project process.
                                                                 Identify no activities for
                                                                  documenting how projects meet
                                                                  environmental commitments.
                        Documents TVA requirements for          Refers to offices and positions that
                         NEPA reviews.                            no longer exist, including TVA’s
                        Provides NEPA process overview           "General Manager,"
 TVA Instruction
                         geared to the public.                    "Environmental Quality Staff,"
 IX                                                               "Director of Environmental Quality,"
                                                                  "Citizen Action Office," and "Citizen
                                                                  Action Line."
                        Requires completing an                  Often repeats instructions at
                         environmental analysis before            different places in the document.
                         decisions are made.                     Is lengthy and overly complex at
                        Identifies detailed process steps        421 pages; provides no navigation
                         and describes rationales to              aids such as bookmarks for users
 NRM                     consider in the process.                 to locate what is needed.
                        Identifies the stages for triggering    Refers to procedures that no longer
                         the NEPA process - the action            exist.
                         proposal stage after the BU              Examples:
                         determines the proposal is                Environmental Management
                         technically feasible or the project        Procedure 7 “Communications




31
     Formerly Environmental Permitting and Compliance.
Audit 2013-14959                                                                                 Page 19

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                  Audit Report


       Source                     Areas Covered                            Gaps or Concerns
                           feasibility stage when the BU is             and Stakeholder Involvement
                                                     32
                           considering alternatives.                    Process.”
                         Identifies BUs’ responsibilities for         Environmental Management
                          closing permits, documenting                  Procedure 11 “Performance
                          completed commitments, and                    Monitoring and Reporting
                          providing environmental review                Process.”
                          documentation for a complete
                          project administrative record.


Recommendation 3 – Revise TVA environmental procedures to better describe
responsibilities for NEPA reviews and address the specific concerns identified in
this report. Update TVA NEPA procedures and guidance to reflect current TVA
structure and procedures, reduce repetition, and improve ease of use. Work with
TVA Projects to better describe requirements in project management procedures
for initiating, documenting, and completing environmental reviews. Include
processes for identifying planned projects and significant work that require but
have not initiated a NEPA review.

TVA Management’s Comments – Agree. The Governance, Oversight,
Execution, and Support (GOES) model developed during Detailed Design
clarified these roles and responsibilities. The Environment group has begun the
lengthy process of updating TVA’s NEPA Instruction IX and NRM, a process
governed in part by the Council on Environmental Quality; however, this process
is not likely to conform to a predictable schedule. The Environment group also
informally described efforts to update the EMS by March 2015 to address the
concerns described above.

Auditor’s Response – The OIG concurs with management’s planned and
completed actions and suggests TVA include in the EMS update an outline of
key steps in the NEPA process and clear descriptions of responsibilities of both
the Environment group and other TVA groups.

ENTRAC System Weaknesses Provide Opportunities for Errors or
Incomplete Documentation
From our tests of CECs and supporting documentation, we noted several system
weaknesses that expose TVA to increased risks that NEPA reviews could be
performed inadequately, documentation of reviews could be missing or
incomplete, and commitments for environmental mitigation could be disregarded
during project implementation. System weaknesses we observed are described
in Figure 6 along with potential impacts to the NEPA process and recommended
system enhancements to improve ENTRAC controls and CEC performance.


32
     NRM, §1-2E and §1-3, define (1) “feasibility stage” as when a BU has a specific goal and is actively
     preparing to make a decision on one or more alternatives for achieving that goal and (2) “technically
     feasible” as when there is sufficient certainty and project information to make a proposal feasible.
Audit 2013-14959                                                                                      Page 20

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                       Audit Report

                        Figure 6: ENTRAC System Observations

                                                                       Recommended
          Weakness                    Potential Impact
                                                                    System Enhancement
 CECs can remain open           Increased risks of not           a. Implement a process for
 indefinitely and               completing adequate NEPA            periodic review of open
 numerous CEC                   reviews, relying on                 CECs and closing of CECs
 commitments entered            documentation that is missing       where commitments were
                                or incomplete, not tracking         met and documented.
 before June 201333 do
                                when commitments should
 not have due dates.            be completed, or failing to meet
                                NEPA requirements.
 CEC initial closed dates       Misleading information on         b. Track the initial CEC
 are revised to add             when CECs are initially              concurrence date separately
 comments or update             completed and whether                from the closed date to
 commitments.                   associated commitments are           indicate when the checklist
                                being tracked.                       is complete and all permits
                                Lack of data integrity on CEC        and commitments are
                                completion dates.                    identified. Consider using
                                                                     the CEC closed date to
                                                                     indicate when all actions,
                                                                     including commitments, are
                                                                     complete.
 CECs may be completed          Increased risks of not            c. Complete the planned
 without environmental          completing the right reviews or      ENTRAC enhancement to
 concurrence or                 reaching the wrong                   require review of CECs by
 comments on what               conclusions.                         at least one environmental
                                                                     representative.
 media were evaluated.
                                                                  d. Include reminders in the
                                                                     CEC process on what
                                                                     reviews and concurrences
                                                                     signify.
 CECs may identify              Increased risk that CEC           e. Include a process in the
 no permits or                  conditions may not be met            planned ENTRAC
 commitments although           during project implementation.       enhancement for the
 checklist comments                                                  environmental
                                                                     representative to determine
 describe specific
                                                                     whether permits and
 conditions.                                                         commitments tracked in
                                                                     ENTRAC capture all
                                                                     conditions required for
                                                                     project implementation.
 Use of business                Questions regarding the need      f. Display the date entered and
 sensitive designation          for business sensitive               short generic identifiers for
 obscures all CEC               designation.                         business-sensitive reviews,
 information from general       Increased risks of not               such as “Security Upgrade”
                                                                                   34
                                completing the reviews.              or “ED Loan,” to identify
 users.
                                                                     the reason for restricting
                                                                     view of details and trigger

33
     ENTRAC was updated in June 2013 to require due dates for new CEC commitments.
34
     ED refers to Economic Development.
Audit 2013-14959                                                                            Page 21

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                      Audit Report


                                                                     Recommended
        Weakness                    Potential Impact
                                                                  System Enhancement
                                                                   more detailed review by
                                                                   environmental
                                                                   representatives.
 EA/EIS projects can be       Increased risk that projects and g. Restrict the capability of
 deleted by the user who      commitments could be deleted        deleting NEPA review
 created the project or       without justification.              records to the ENTRAC
 the designated BU                                                administrator. Consider
                              Process lacks accountability
                                                                  deleting only records that are
 Manager.                     because deleted records are
                                                                  initiated in error or duplicate
                              removed from ENTRAC.
                                                                  other reviews.
                              Cancelling or withdrawing
                              commitments or EA/EIS
                              projects that are no longer
                              needed is preferred.


Recommendation 4 – Enhance ENTRAC system controls over data integrity
and reliability, considering the recommended system enhancements for items
detailed above in Figure 6, to improve the NEPA review, CEC documentation,
and closing processes.

TVA Management’s Comments – Agree. TVA had identified and pursued
ENTRAC enhancements to include better commitment management and tracking;
functionality that facilitates completeness and accuracy; technical enhancements
that improve usability; and system-driven process improvements concerning
opening, reopening, and closing CECs; and a requirement for an environment
reviewer before closure. The last of these modifications is in developmental
testing stage with full implementation targeted for March 2015. TVA continues
to work with Information Technology to maintain and enhance the ENTRAC tool.

Auditor’s Response – The OIG concurs with management’s planned and
completed actions.

ENVIRONMENTAL MANAGEMENT SYSTEM IS GENERALLY
EFFECTIVE BUT COULD IMPROVE
We observed many positive aspects of the EMS program which generally
demonstrated the effectiveness of environmental risk management functions.
However, we determined opportunities for enhancing TVA’s EMS exist as related
to communicating with regulators; internal coordination of planning processes;
emergency response preparedness; environmental training; and sharing lessons
learned. Additional areas of concern were described by sources we interviewed.




Audit 2013-14959                                                                          Page 22

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                             Audit Report

Environmental Management System Is Vital to TVA Environmental
Compliance
During our audit, we observed functions that are used to implement EMS
program elements and are vital to sustaining a high level of environmental
compliance in TVA activities and operations. Most of these functions fall within
EMS execution and support,35 which along with other program elements and
functions, provide a consistent approach for managing environmental-related
activities across multiple TVA organizations and set the stage for continuous
improvement. We noted that one function, Environmental Compliance
Assurance,36 fell within the oversight role by conducting independent
assessments of EMS program implementation and TVA compliance with
environmental requirements. TVA management responsibilities over
environmental functions include providing resources to implement and maintain
TVA’s Environmental Policy and EMS; defining and communicating organization-
level EMS roles and responsibilities; establishing and maintaining operational
controls to correct deficiencies and meet environmental commitments; reviewing
processes and outcomes to identify and implement needed environmental
management improvements; and assessing, monitoring, and addressing
environmental events. The more notable environmental functions and the
values we recognized through observation and discussions are described on the
following pages in Figure 7 along with the relevant EMS sections. With TVA’s
2014 restructuring, some of the observed functions are transitioning to new
approaches. For example, TVA is implementing a contracting model for handling
hazardous wastes and plans to close the storage facility after June 2014.

A specific example of the values we observed relates to how EMS oversight
of TVA’s Environmental Restricted Awards List (ERAL) has reduced TVA’s
environmental risks. As mentioned in Figure 7, TVA’s Hazardous Waste Storage
Facility managed the ERAL and, along with assessments conducted in the
Environmental Assurance Compliance function, screened vendors for approval
to handle waste disposal. By implementing ERAL, the EMS streamlined
management of environmental waste disposal risks to prevent the long-term
impacts TVA encountered in the past. Prior to FY2013, TVA tracked the potential
liabilities from contributing since the 1970s to third party waste disposals that were
later cited with regulatory violations until the liabilities were settled or resolved
or did not materialize. TVA’s 2013 financial report included a $1 million estimated
liability for disposing of PCB-containing equipment at a third party in 1974.




35
     The TVA accountability model incorporates GOES; Governance (who makes the rules for functions),
     Oversight (who oversees functional compliance with the rules), Execution (who implements the work),
     and Support (who supports the work).
36
     The Environmental Compliance Assurance function was a component of the Compliance and Policy
     Governance BU before transition in FY2014 to the Operational and Regulatory Assurance organization in
     the Financial Services SBU.
Audit 2013-14959                                                                                 Page 23

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                              Audit Report

               Figure 7: EMS Program Functions and Observed Values
 Program Function/
                                                         Values Observed
    EMS Section
                                 Provide direct support of site environmental compliance and
          Responsible             permit activities.
         Environmental           Are closely familiar with the site and personnel.
          Personnel37
                                 Have broad knowledge base of operations and environment.
        (EMS 3.1.5A.2)
                                 Provide environmental training support.
                                 Own and support site environmental activities.
      Site Management            Implement mitigation measures to prevent incidents.
       and Personnel             Implement corrective actions to correct deficiencies.
         (EMS 3.1.6)             Monitor environmental performance.
                                 Plan for incident response.
                                 Serve as subject matter experts (SME) for selected environmental
      Media Specialists           media and the regulatory landscape.
       (EMS 3.1.5A.1)            Support organizational compliance, monitoring, and reviews.
                                 Coordinate regulator interfaces.
                                 Performs sampling, testing, analysis, inspections, and monitoring
       Technical Support          to support permitting and compliance activities and environmental
     (supports EMS 3.1.6,         reviews.
     EMS 3.1.8, 3.2.11C.)  Provides modeling, analysis, data collection, and laboratory results
                                  for reporting, forecasting, and making decisions.

                                 Identifies proper handling of hazardous and other wastes and
                                  completes documentation and labeling according to requirements.
                                 Collects and combines small waste quantities for shipment to
                                  approved vendors.
      Hazardous Waste
                                 Coordinates direct shipments from sites with large waste
       Storage Facility
                                  quantities.
         (EMS 5.0)
                                 Tracks waste shipments and manages a database of shipment
                                  information.
                                 Manages TVA’s ERAL of vendors approved to perform
                                  environmental tasks.
 Emergency Response  Are prepared to respond to incidents at short notice.
       Teams         Assist sites and personnel in preparing for environmental
    (EMS 3.2.10)      incidents.
                                 Independently assesses EMS program elements, site compliance,
         Environmental            and environmental vendors.
          Compliance
                                 Maintains a high level of staff qualifications and knowledge of
          Assurance               environmental requirements.
        (EMS 3.2.14A.)
                                 Prepares sites for regulatory inspections and helps avoid


37
      TVA-SPP-5.0 defines Responsible Environmental Person as “The EP&C staff responsible for site/project
      specific environmental compliance (e. g., Environmental Scientist, formerly known as the PA-E).” EP&C
      was the Environmental Permitting and Compliance BU that preceded the current Environment
      organization in the Operations SBU.
Audit 2013-14959                                                                                   Page 24

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                        Audit Report


 Program Function/
                                                      Values Observed
    EMS Section
                                  violations.
                                 Completed an average of 26 assessments per year across
                                  multiple sites and operations from FY2011 through FY2013.
                                 Focus on changes in environmental requirements and their impact
                                  to operations.
       Regulatory Policy  Interact with other utilities on environmental matters in the
     Teams (EMS 3.2.3B.)   industry.
                                 Coordinate internal sources and experts to evaluate changing
                                  conditions.

Opportunities to Enhance TVA’s Environmental Management System
We identified opportunities where TVA’s EMS could be enhanced to improve
external communication, coordination with other BUs, emergency preparedness,
training, and sharing lessons learned. Sources expressed concerns related to a
variety of environmental functions.

Communication With Regulators Is Not Clearly Understood and Can Cause
Unnecessary Delays
EPA best practices describe maintaining effective communications with
regulatory authorities as an element of environmental compliance assurance.
EMS states the Environment group is the primary regulator interface, coordinates
with site environmental personnel to interact with regulators regarding
operational-level activities, and leads day-to-day communication with regulators
for all TVA organizations. EMS describes areas of responsibility for both REPs
and SMEs to work closely with regulators on permit applications, site inspections,
and resolution of concerns. During our audit, we met with a federal agency
Project Manager and a group of state regulators. Officials at both meetings
stated TVA was doing the right things and had a good environmental program,
which reflected the advance preparation sites made to prepare for regulatory
oversight. The state regulators made a surprise visit at a large TVA site and
identified only minor concerns to be addressed. In addition, the regulators stated
the TVA site exhibited example BMP of monitoring numerous satellite collection
points and locking drums to collect items for disposal. In our opinion, this
experience highlights TVA’s level of effectiveness in the field and the importance
for TVA to maintain good relationships with regulators in a consistent manner
that provides everyone the information they need.

However, inconsistencies in communication with regulators can cause
unnecessary delays and frustrations. TVA’s FY2014 Strategic Business Plan
describes using effective peer-to-peer relationships with regulators to help
enhance TVA’s reputation with the public. TVA’s unified voice philosophy,38
as described in the Environment group’s 4th quarter FY2013 risk assessment,
suggests having a consistent message with regulators with emphasis on
38
      Commonly called the “one voice” philosophy.
Audit 2013-14959                                                                              Page 25

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Audit Report

peer-to-peer relationships. However, this philosophy has been interpreted to
mean only an SME should contact regulators directly even though direct contact
with regulators by personnel other than an SME can sometimes resolve
questions quickly. As a result, some people stated they should never contact
regulators, while others were unclear about the process. For example, some
sources described contacting a regulator to discuss a minor question and then
being informed by other TVA personnel that direct contact with regulators is not
allowed and only SMEs should contact regulators. Other individuals who met
with regulators at sites resolved minor questions or clarified understanding
quickly by contacting regulators directly after their visits, which demonstrated the
peer-to-peer approach. In contrast, getting the information could take days by
funneling requests to contact regulators through the SMEs who may have other
obligations or not be available.

Recommendation 5 – Clarify roles for communicating with regulators in line with
the peer-to-peer approach reflecting level of responsibility or severity of issues.
Include SMEs on calls to regulators when possible so that Environment
personnel are informed during the same discussion and deliver a consistent
message to regulators.

TVA Management’s Comments – Agree. Speaking with “one voice” is a key
aspect of TVA’s Environment group’s roles and responsibilities. This was
discussed and reinforced during most recent Environment “all hands” meetings
and was further communicated in the July 2014 Vice President’s newsletter to all
Environment employees and each Operations executive.

Auditor’s Response – The OIG concurs with management’s completed actions.

Internal Coordination Gaps Can Impact Planning for Some Processes
EPA best practices describe effective internal communication as being necessary
for both program integration and compliance assurance. In general, cooperation
with TVA’s Environment staff by BUs and senior management was viewed
positively by personnel we interviewed. Example comments included site
personnel being very receptive to input on environmental matters, relationships
being better than ever, and levels of cooperation and knowledge sharing being
priceless. In addition, environmental involvement with project teams was
generally viewed as helping to build relationships with BUs and to make good
decisions early in the project process.

However, some personnel described challenges and tensions in working with
specific BUs, while others stated cooperation increased when BUs understood
the importance of environmental responsibilities and why certain actions are
necessary. Some personnel attributed confusion about environmental functions
and difficulties in communication with having environmental responsibilities in
multiple organizations. Effective coordination between BUs is key to a strong
environmental program, regardless of TVA’s organizational structure.

Audit 2013-14959                                                              Page 26

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Audit Report

During our audit, we noted a TVA public announcement for major dam
maintenance work that involved drawing the reservoir down nearly 14 feet
below the normal winter level. TVA announced on November 7, 2013, that
archaeological artifacts that may be exposed during the drawdown are protected
resources, and it is a crime to disturb or remove those artifacts. We noted the
corresponding CEC was initiated on November 15, 2013, a week after the public
announcement, and clearly not completed before the project was initiated.

In addition, several sources stated TVA has had instances when a NEPA review
was not conducted when it seemed evident a review was appropriate, such as
for land purchases or idling plants. According to TVA’s Office of the General
Counsel, although these transactions do not legally require NEPA reviews until
additional actions are proposed, conducting the reviews is preferred and often
makes good business sense.

     Concerns over property acquisitions were attributed to the lack of
      environmental involvement in the purchase process. TVA has purchased
      properties that had environmental issues such as sinkholes, asbestos, or
      lead paint, resulting in unplanned cleanup or maintenance costs. A specific
      example was cited for the purchase of historically registered property at
      a coal plant. During our audit, TVA’s Real Estate Strategy and Support
      group39 was working on a plan to address these issues and ensure property
      acquisitions properly consider environmental risks.
     Concerns expressed over idling coal plants were attributed to the lack of
      planning for this change in TVA operations. Sources cited the example of a
      NEPA review being suspended for a coal plant being idled. Personnel were
      concerned about how environmental monitoring would be performed at idled
      plants with very few assigned staff and how TVA could avoid problems such
      as the conditions that degraded over many years at the idled Watts Bar Fossil
      Plant before it was dismantled in 2011.

Recommendation 6 – Collaborate with BUs responsible for planning major
maintenance work, property acquisitions, and idling plants to ensure
environmental involvement is obtained for identifying and considering associated
environmental risks.

TVA Management’s Comments – Agree. The specific issues noted were
identified and addressed either at the time they occurred or subsequently through
the Environment group’s new organization GOES model. TVA will continue to
follow EMS practices including continuous improvement.

Auditor’s Response – The OIG concurs with management’s completed actions.
The OIG suggests the Environment group take additional actions to better define
environmental requirements for property acquisitions and planning for idled

39
     In the Shared Services SBU.
Audit 2013-14959                                                             Page 27

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                                       Audit Report

plants. These actions may be reflected in the planned EMS update or in direct
communications with responsible BU.

Emergency Response Preparedness Risks Are Increased at Unstaffed TVA Sites
EMS states the purpose of the program element Environmental Incident
Response and Notification “. . . is to maintain a process to identify and respond
to emergency situations that can impact the environment.” Emergency
preparedness is also identified by EPA as a best practice that makes good
business sense and relies on properly maintained facilities and trained personnel
to help limit property damage, lost-time injuries, and process down time.
As described by EPA, personnel should understand the use of equipment and
know who to call, where to go, what to do, and most importantly, what not to do
in emergency situations. Sources agreed TVA is prepared to respond to
environmental emergencies at sites where emergency drills are conducted.
As we observed at Gallatin Fossil Plant, emergency drills use scenarios to
practice response activities, understand and reinforce response roles, and
discuss potential process improvements.

However, unstaffed sites and other sites without emergency drills are at
increased risk of not being able to respond adequately in emergency situations.
At unstaffed, small, and remote sites, TVA depends on the public to report
potential incidents and on local responders for emergency dispatch. As a result,
risk is increased that environmental emergency events at these locations will not
be identified or responded to before significant contamination starts to occur.
Concerns were also expressed about (1) TVA’s ability to respond to after-hours
emergencies at sites that are staffed only during core business hours and
(2) whether enough site personnel are being trained on responding to
emergencies and managing and coordinating incidents.

In a 2012 evaluation of Coal and Gas Operations emergency preparedness,40
we identified similar concerns attributed to inconsistencies in the emergency
preparedness program, awareness, and training. TVA management provided
a plan for the Generation Emergency Preparedness and Response Program
to address our recommendations for improving consistency in Coal and Gas
Operations’ emergency preparedness, off-site collaboration, and training.

Recommendation 7 – Collaborate with TVA personnel responsible for
emergency planning at unstaffed, small, and remote sites to (a) identify gaps
in emergency planning coverage; (b) improve plans for emergency response,
particularly to coordinate with local responders where agreements may not exist;
and (c) identify personnel trained in emergency response for covering unstaffed,
small, and remote sites if an environmental incident occurs. Leverage the work
initiated for improving consistency in Power Operations’ emergency planning to
improve emergency planning for unstaffed, small, and remote sites.

40
     Evaluation 2012-14523, Review of Coal and Gas Operations Emergency Preparedness and Response,
     issued May 14, 2013. Coal and Gas Operations transitioned to Power Operations in 2014.
Audit 2013-14959                                                                            Page 28

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                               Audit Report

TVA Management’s Comments – Disagree. TVA has varying levels of
emergency planning and practice as required by both regulation and relative risk.
Sites with greater environmental risks require and demand more elaborate plans
and specific staffing assignments. Alternatively, small “unstaffed” sites store
lower volumes of oil with barriers and/or instrumentation appropriately matched
to the level of risk. Further, the Environment group’s Regional Model provides
site support within a reasonable travel/response distance. Spill Prevention,
Control, and Countermeasure Plans and Tier 2 Reports serve to engage local
responders. Operations Support identifies and trains emergency responders as
appropriate. TVA will continue current practices described in its EMS.

Auditor’s Response – The OIG recognizes the need for TVA to balance
mitigation actions with risk exposure. We believe keeping all TVA sites safe from
environmental risks is important and we encourage the Environment group to
work with Emergency Preparedness personnel to look for ways to further mitigate
those risks where possible.

Orientation to Environmental Job Duties Is Inconsistent
EMS states the purpose of the Training and Awareness “. . . program element is
to ensure all TVA staff and contractors who can impact the environment receive
required environmental training and maintain awareness of environmental
compliance and EMS requirements.” EPA also identified environmental training
as a best practice that should be extended to all employees as appropriate.
TVA offers general environmental awareness as a one-time online course for
most personnel and supplemental general and technical training on a variety
of environmental topics.41 However, TVA does not require general environmental
awareness on a regular basis to reinforce knowledge and communicate program
and regulatory changes, and approaches for orienting new employees are not
consistent. We identified three ways that make environmental training useful to
personnel in the performance of their duties.

     All personnel have some level of responsibility to be able to recognize
      environmental problems where they work and to know where to report such
      problems or where to get help. Without periodic awareness training,
      personnel are less likely to handle situations appropriately and, amplified
      by changes in organizations and resources over time, are more likely to be
      unfamiliar with processes and personnel who can provide help with
      environmental issues.
     Environmental representatives and technicians may be oriented to their
      position on the job or by mentoring with others. TVA provides skills
      enhancement to support technical certifications and individual development
      plans. Some groups have worked on progression plans and used training
      checklists. Other groups used a combination of individual development plans,
      coaching, and training on the job. However, several sources stated

41
     For purposes of this report, we did not evaluate the adequacy of content covered in TVA environmental
     training or identify specific compliance issues attributed to inadequate training.
Audit 2013-14959                                                                                   Page 29

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Audit Report

    orientation of new personnel for environmental positions is informal and
    additional coaching would have helped. Sources also stated new employees
    have needed additional direction, training, or mentoring; or when filling
    positions, BUs require experienced personnel because of the job demands or
    lack of mentors. Some sources stated new employees just get thrown into
    the job or learn by fire, and it can take up to 2 years to adequately learn the
    duties. Although training needs are best met when tailored to individuals, an
    inconsistent approach to orientation can frustrate new employees or place
    them on the job without the confidence and knowledge needed to perform
    new duties efficiently and effectively.
   Site representatives also provide site-specific training, orientation, and block
    training on environmental topics for operations personnel and contractors.
    These activities allow personnel with a variety of job duties to gain insights
    and reinforce knowledge of environmental issues that are specific to the sites
    and to better understand their roles related to the environment. TVA could
    improve knowledge sharing by making information used for informal training
    events available in a common repository.

Recommendation 8 – Complete efforts to identify skills progressions for
environmental representatives. Revise the environmental training program to
require periodic refresher environmental awareness training for all employees
and contractors who do not have regular environmental training based on job
duties. Consider options to provide additional and more consistent direction to
employees new to environmental positions.

TVA Management’s Comments – Agree. The new Environment group has
clear roles and responsibilities including revised job descriptions where needed.
For individuals in new roles, “fast-start” individual development plans include
identifying necessary competencies, training, and other activities for appropriate
orientation. TVA will continue workforce development designed to ensure
engagement and performance. Upon request, TVA management stated,
“We do not agree with the recommendation that every employee should be
required to take periodic refresher on environmental awareness.” TVA’s
Technical Training group stated performance specific environmental training
is provided to responsible employees for tasks that do require refresher training,
and a job task analysis could be conducted to develop specific curricula
necessary for new job orientation.

Auditor’s Response – The OIG concurs with TVA’s completed actions and
suggests completing the new job orientation analysis and curricula development
to support ongoing use of the “fast-start” individual development plans.




Audit 2013-14959                                                              Page 30

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                         Audit Report

Lessons Learned Are Shared by Informal Methods
TVA defines lessons learned as “knowledge gained from experience, successful
or otherwise, that is captured and shared to promote repeat application, if
successful, or to avoid recurrence.”42 Interview comments indicated lessons
learned are managed in different ways by different TVA organizations and there
is little or no standardization of the process. In a 2011 audit of lessons learned
during construction,43 we identified similar concerns related to documenting and
sharing lessons learned. After our audit, several BUs implemented lessons
learned databases with access through the TVA Project Management internal
Web site. We noted active use of these databases for Operations BUs including
Transmission, Projects, and Nuclear Construction.

Sources stated organizations share lessons to varying degrees using e-mails,
phone calls, morning meetings, team meetings, informal discussions, written
lists, spreadsheets, group bulletins and communiques, monthly reports, training
presentations, the corrective action program, and other informal methods.
All of these methods can be used to share information on a case-by-case basis.
Some individuals stated informal communication among peers works well and
Operations groups generally do a good job sharing within their BUs. However,
other individuals stated lessons could be better shared across organizations and
performance could be improved with a more centralized and standardized way to
capture lessons learned, near misses, and BMP. In particular, the Operations
Projects’ lessons learned repository was considered a model for other TVA
groups and may be an appropriate design for capturing environmental lessons
learned from all types of projects. TVA’s Projects and Operations Support
groups have been working on a unified TVA lessons learned program and
database with targets to initiate the new database for the Projects group in
June 2014 and for all TVA Operations in September 2014. This tool may provide
a standardized way to capture and share environmental lessons learned, so that
future team members and TVA as a whole can benefit more fully from the
experience-based knowledge.

Recommendation 9 – Coordinate with TVA’s Projects and Operations Support
to determine whether the planned lessons learned database will provide the
flexibility needed to identify environmental lessons learned, near misses, and
BMP; and how the Environment group will participate in the database
implementation and communicate availability of this tool for finding potential
options to prevent and address environmental issues.

TVA Management’s Comments – Agree. The Environment group will
participate fully in the new Enterprise Lessons Learned Information System
(ELLIS), which serves as a unified TVA lessons learned program and database.
There is enough flexibility to allow for different groups to submit and search

42
     TVA-SPP-34.016, Project Lessons Learned Management, effective October 1, 2011.
43
     Audit 2011-13781, Lessons Learned at Lagoon Creek Combined Cycle Plant, issued September 21,
     2012.
Audit 2013-14959                                                                             Page 31

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Audit Report

lessons learned as they need as well as searching all lessons together or
searching by group. The Environment group will begin using ELLIS in FY2015.

Auditor’s Response – The OIG concurs with TVA’s planned and completed
actions.

Common Themes From Interview Comments Identify Concerns
Interview comments generally fell within program areas of communication,
program effectiveness, organization and resources, contractor performance,
emergency preparedness, lessons learned, the NEPA process, coordination with
other TVA groups, interactions with external regulators, tracking data and issues,
training, and specific environmental media. We heard common themes about
professionals doing good environmental work and a culture where it is only
acceptable to do what is necessary to protect the environment and to ensure
TVA activities do not adversely impact the natural resources in our region.

We also heard many comments expressing concerns about the viability of TVA’s
EMS and the ability to meet the challenges directly in a productive and proactive
way that best serves the Valley. Individuals expressed the need to move to
prevention and to work smarter so the environment is considered an integral part
of daily business. Concerns expressed during our audit also highlighted potential
problems in TVA’s environmental risk management processes.

During interviews, we asked 101 individuals about potentially compromising
situations where individuals working on environmental issues may have received
pushback, been pressured to overlook an issue, or been blocked by lack of
resources. The overall results of these discussions as shown in Figure 8, on the
following page, were predominantly positive about attitudes and integrity when
dealing with environmental issues. Negative responses reflected:

1. Pressured to overlook an environmental issue a couple of years ago.

2. Situations of resistance from a manager who later left TVA, expanded issues
   of past poor maintenance, operational needs taking priority, changes thought
   to be unnecessary, uncertainty about the future, and disregard for guidance.

3. Resource limits relating mostly to budget constraints and insufficient staff
   or resource cuts; two responses mentioned lack of executive support and
   inadequate planning. Trouble spots included the budget and planning for
   coal plants being idled and insufficient staff to manage environmental impacts
   associated with the Muscle Shoals Redevelopment project.




Audit 2013-14959                                                            Page 32

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                     Audit Report

Figure 8: Responses to Questions on Potentially Compromising Situations
                                                                           Positive              Negative
                     Interview Question44                                 Responses             Responses
1. Do you know of instances when someone was                                98% No                 2% Yes
   pressured to overlook an environmental issue?
2. Are you aware of situations where personnel,                             87% No                13% Yes
   including management, resisted implementing
   remediation or impeded actions to correct
   environmental issues?
3. Do you get the support and resources needed to                           85% Yes               15% No
   correct environmental issues?

Many personnel stated TVA does a good job identifying and prioritizing
environmental risks, providing support and resources, orienting contractors
to site environmental requirements, and communicating regulatory changes.
Sources described the close relationship and parallel priorities of environmental
awareness to safety matters, the ongoing efforts to implement corrective actions,
good relationships between Environment staff and other groups, and good
cooperation and support from BUs. More specifically, Generation Engineering
starts the NEPA process early in project timelines and Environment is involved
in planning and permitting for every project phase.

Sources also described areas of concern related to insufficient staffing and
excessive turnover, budget constraints, organizational changes and culture,
inability to adequately cover or inspect some TVA sites, the need to better
communicate contractor expectations, plant closures, effects of poor or reduced
equipment maintenance, PCB management, ash management, water
management operating procedures and abandoned wells, the lack of adequate
databases, and the inability to archive historical data. Other individuals
expressed concerns about the NEPA process related to the timing of
environmental reviews to support informed decision making, overreliance on
contractors to perform the reviews, and some tensions between project and
NEPA groups over impacts to project schedules. Functional gaps were identified
related to water quality sampling, aquatic monitoring, and land surveying.

We provided a list of common remarks and concerns to the Environment group45
for consideration in risk management activities and improving the EMS program.
Accordingly, we made no specific recommendations to address the information
provided.




44
     Wording is representative; questions were asked in a variety of ways to fit the individual’s role related to
     environmental functions.
45
     Identities of sources were not identified with the list of remarks.
Audit 2013-14959                                                                                          Page 33

                                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Audit Report


CONCLUSION
Generally, TVA has effective processes for identifying and managing actual and
potential environmental issues and risks. However, TVA organizational changes
described in this report include budget cuts that impact human capital, may
impact many of TVA’s environmental management functions, and heighten
potential impacts from reduced funding. When budget cuts were being
considered in FY2012 business planning, potential impacts from reduced EMS
funding were identified as increased environmental risks and potential REEs,
elimination of water quality monitoring, loss of advanced outlook on new
regulations, less expertise to shape regulations or support enforcement,
increased compliance costs, increased litigation risks, and loss of compliance
support for environmental programs. In order to meet TVA’s environmental
stewardship mission in this time of increased scrutiny and into the future, TVA
must be able to demonstrate environmental compliance in all operations and
not just react to incidents.

In order to continue the level of performance demonstrated in the last several
years, TVA must increase process efficiencies. As described and observed
during our audit, improvements have been due largely to TVA’s collective
knowledge base and the dedication of individuals to fulfilling their responsibilities
and doing the right things to make sure TVA addresses risks to the environment.
When TVA finds its new “operating normal” after the current restructuring, it will
become increasingly important to have that knowledge well documented to help
sustain the EMS and facilitate efficient and effective environmental activities.

Because of the importance of environmental functions to EMS program
effectiveness, it is essential for TVA to ensure adequate resources are available
for these functions into the future. If effectiveness materially erodes for the
functions described in this report, TVA increases the risks that environmental
concerns could be overlooked, issues could be handled improperly which could
increase violations, or operations may not be prepared to meet regulatory
changes. Factors elevating these risks include potential contamination,
violations, fines and penalties, lawsuits, heightened scrutiny from regulators and
the public, reputational damage, changing regulations, aging equipment, and
the possibility that the combination of one or more factors occurring in a single
incident or a series of similar incidents could significantly elevate risks and
exposures from those incidents and to TVA’s overall environmental performance.
Because many of these factors are externally driven, TVA must manage
environmental risks proactively within operational control to ensure the future
viability and effectiveness of TVA environmental functions needed to
demonstrate proper environmental stewardship in line with TVA’s mission,
lead by example, and work toward continuous improvement. By implementing
the recommendations in this report, TVA can improve process efficiencies that
will help sustain EMS effectiveness in the face of current challenges and impacts
from budget constraints and operational pressures.


Audit 2013-14959                                                               Page 34

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                      Audit Report


MANAGEMENT’S RESPONSE AND OUR EVALUATION
In response to a draft of this report, TVA management described actions taken
during FY2014 and planned to improve environmental risk management
processes. We incorporated their comments throughout this report where
appropriate and included their entire response in the Appendix. TVA
management stated they will use the insights and information provided in this
report for continuous improvement and program evolution. In general, TVA
management agreed with our recommendations, except for suggested actions
to address inconsistencies in emergency response preparedness and require
periodic environmental awareness refresher training for TVA’s general
population. The OIG concurs with the actions planned and completed to
address our recommendations.




Audit 2013-14959                                                         Page 35

                                  TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 1 of 4




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 2 of 4




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 3 of 4




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 4 of 4




TVA RESTRICTED INFORMATION
